           g$     0
                                                 NATIONAL SCIENCE FOUNDATION
                 bin
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS


11                                    CLOSEOUT MEMORANDUM

     Case Number: A04040018



         In April 2004, a n NSF Program Manager (PM)l told us about an email he had
         received from the complainant.2 The complainant had sent a n email to several
         people, including the PM. In the complainant's email, he described a n experiment,
         which he described a s being conducted in an atmosphere where a particular result
         was expected to be obtained and said someone (he did not identify a subject) had
         taken liberties with data to obtain the desired result. After we discussed the matter
         with the PM, he said anyone familiar with the matter (and asserted all the copied
         recipients would be) would know exactly what the complainant is discussing.
         Supporting his assertion, he showed us a subsequent email sent to him in response
         to the complainant's email that mentioned a paper (the paper)3 that provided
         details about the experiment, the data, and the authors (subjects).
         We called the complainant to get the details of which data might not be genuine,
         but he declined to provide any details of the allegation, or even make a n allegation.
         He thought a company, with which he is affiliated, was negatively affected by the
         data in the paper, but he thought the incident was "water over the dam." He
         described his situation as resulting from management problems a t a n organization
         that sponsored the research using NSF funding.4 In particular, he thought how the
         organization managed (or did not manage) conflicts of interests resulting from its
         technology transfer program were to blame rather than any individual.
         Because the complainant declined to provide information necessary to pursue the
         allegation, we cannot conduct a n inquiry. Accordingly, this case is closed




            l                     .
                NSF Program Managers are required by NSF policy to n o t e OIG of allegations of misconduct.
